Mrttteh States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted November 23, 2020
Decided December 1, 2020
Before
FRANK H. EASTERBROOK, Circuit Judge
MICHAEL S. KANNE, Circuit Judge

No. 20-1290
JULIAN J. MILLER,
Petitioner-Appellant,

v.

.1

DYLON RADTKE,
Respondent-Appellee.

Appeal from the United States District
Court for the Eastern District of
Wisconsin.
No. 19-CV-126-JPS
J.P. Stadtmueller,

Judge.

ORDER
Julian Miller has filed a notice of appeal from the denial of his 28 U.S.C. § 2254
petition and a request for a certificate of appealability. We have reviewed the final order
of the district court and the record on appeal. We find no substantial showing of the
denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, we DENY the request for a certificate of appealability.

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
JULIAN J. MILLER,
Petitioner,
v.

Case No. 19-CV-126-JPS

WILLIAM J. POLLARD,

JUDGMENT

Respondent.

Decision by Court. This action came on for consideration before the Court
and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that Respondent William J.
Pollard's motion to dismiss (Docket #13) be and the same is hereby
GRANTED;
IT IS FURTHER ORDERED AND ADJUDGED that Petitioner
Julian J. Miller's petition for a writ of habeas corpus (Docket #1) be and the
same is hereby DENIED;
IT IS FURTHER ORDERED AND ADJUDGED that a certificate
of appealability as to the Petitioner Julian J. Miller's petition be and the
same is hereby DENIED; and
IT IS FURTHER ORDERED AND ADJUDGED that this action be
and the same is hereby DISMISSED with prejudice.
A

’PROVED:

J.t. Stadpuieller
U.S“. District Judge

Case 2:19-cv-00126-JPS Filed 01/21/20 Page 1 of 2 Document 24

January 21, 2020
Date

STEPHEN C. DRIES
Clerk of Court
si Jodi L. Malek
By: Deputy Clerk

Page 2 of 2
Case 2:19-cv-00126-JPS Filed 01/21/20 Page 2 of 2 Document 24

K

Office of the Clerk

WISCONSIN COURT OF APPEALS
110 East Main Street, Suite 215
P.O.Box 1688
Madison, Wisconsin 53701-1688
Telephone (608) 266-1880
TTY: (800) 947-3529
Facsimile (608) 267-0640
Web Site: www.wicourts.gov

DISTRICT II
October 15, 2018
To:
Hon. Anthony G. Milisauskas
Circuit Court Judge
Kenosha County Courthouse
912 56Lh St.
Kenosha, WI 53140
Rebecca Matoska-Mentink
Clerk of Circuit Court
Kenosha County Courthouse
912 56th Street
Kenosha, WI 53140

Daniel J. O’Brien
Assistant Attorney General
P.O. Box 7857
Madison, WI 53707-7857
Julian J. Miller 311897
Green Bay Correctional Inst.
P.O.Box 19033
Green Bay, WI 54307-9033

You are hereby notified that the Court has entered the following opinion and order:
2017AP1358-W

State’of Wisconsin ex rel. Julian J. Miller v. Scott Eckstein
(L.C. # 2009CF887)

Before Reilly, P.J., Gundrum and Hagedom, JJ.
Julian J. Miller has filed a pro se petition for a writ of habeas corpus seeking to reinstate
his Wis. Stat..Rule 809.30 direct appeal rights. As grounds, Miller alleges that appointed
counsel’s ineffectiveness forced him to litigate his direct appeal pro se, that prison staff-caused
his appeal to be dismissed by improperly denying his legal loan applications, and that state law
unconstitutionally denied him access to his inmate release account, thereby causmg the-dismissal
of his appeal. Respondent Warden Scott Eckstein has filed a response pursuant to this court’s

l\

•fc.

E-

No. 2017AP1358-W .

r

order, see Wis. Stat. Rule 809.51(2) (2015-16), and Miller has filed an unsolicited reply. We
now deny Miller’s petition.
In 2011, following a jury trial at which he was represented by counsel, Miller was
convicted of serious felonies and received a life sentence. Postconviction, Attorney Jeffrey
Jensen was appointed to represent Miller. Jensen filed a notice of appeal on Miller’s behalf in
January 2013. That appeal was docketed as No. 2013AP232-CR. During the appeal’s pendency,
Miller filed a motion asking that this court either (1) permit hybrid representation by remanding
the matter to the circuit court so that Miller could file a pro se postconviction motion, or
(2) allow appointed counsel to withdraw so that Miller could represent himself. By order of
April 5, 2013, we denied his request to appear pro se in the circuit court while represented by
appointed counsel. See State v. Debra A.E., 188 Wis. 2d 111, 138, 523 N.W.2d 727 (1994) (an
appellant does not have the right to appear pro se when he or she is represented by counsel); State v.
Redmond, 203 Wis. 2d 13, 24, 552 N.W.2d 115 (Ct. App. 1996) (once a defendant elects to be
represented by counsel on postconviction relief, the defendant is statutorily barred from
simultaneously proceeding pro se during the pendency of the appeal).

Because Miller was

requesting to discharge counsel and proceed pro se, our order advised Miller of his right to
counsel for postconviction and appellate proceedings, as well as his right to exercise the Wis.
Stat. Rule 809.32 no-merit option. See State v. Thornton, 2002 WI App 294, %l\, 259 Wis. 2d
157, 656 N.W.2d 45. We cautioned Miller that if he discharged Attorney Jensen but later
changed his mind, it was unlikely that new counsel would be appointed. State ex rel. Ford v.
Holm, 2004 WI App 22, ^32, n.9, 269 Wis. 2d 810, 676 N.W.2d 500. We warned Miller that if
All references to the Wisconsin Statutes are to the 2015-16 version unless otherwise noted.

2

i

No. 2017AP1358-W

he chose to proceed pro se, he would still be required to comply with the Rules of Appellate
Procedure, including statutory deadlines and briefing requirements
As Miller’s writ petition acknowledges, we warned him “of the dangers of self­
representation,” and stated:
Miller shall carefully consider this order and advise the clerk of
this court in writing whether he desires to discharge counsel and
waive the right to counsel for postconviction and appellate
proceedings. If Miller confirms that he desires to discharge
counsel and proceed pro se, we will conclude that he has waived
his right to counsel, and we will discharge appointed counsel.
We will decline to permit Miller to proceed pro se and will require
appointed counsel to remain of record if: (1) Miller does not
clearly express his desire to proceed pro se and waive his right to
counsel or (2) Miller’s response to our order leaves a doubt as to
his understanding of the consequences of proceeding pro se, his
knowing and intelligent waiver of the right to counsel, or his
competence to proceed pro se.
Miller confirmed in writing his desire to discharge Attorney Jensen and to proceed pro
se, and moved to dismiss the appeal so he could pursue postconviction relief in the circuit court.
By order dated April 25, 2013, we granted Miller’s motion to discharge Attorney Jensen,
dismissed the appeal, and reinstated the time for filing a postconviction motion.
Thereafter, Miller filed a postconviction motion in the circuit court. After conducting
evidentiary hearings, the circuit court denied Miller’s postconviction motion. On June 27, 2014,
Miller filed a notice of appeal, which was docketed in this court as No. 2014AP1506-CR. The
record was first filed on August 24, 2014, but briefing was tolled after we granted, in part,
Miller’s motion to correct the record. The record supplement was filed on January 23, 2015, and
Miller’s post-supplement appellant’s brief was due on March 4, 2015. Miller was granted a
number of briefing extensions. On October 2, 2015, more than eight months after the record

3

t%>

No. 2017AP1358-W

supplement was filed, we stated we had “already granted Miller multiple lengthy extensions” but
extended the deadline to November 27, 2015, “based on [Miller’s] representation that this will be
his last one.” As of November 27, 2015, the brief was not filed. On December 8, 2015, Miller
submitted a motion requesting an extension of the time to file his brief, permission to file an
oversized brief, and an order staying the appeal and remanding the case to the circuit court for
fact finding. We denied Miller’s requests for permission to file an oversized brief and for a
remand to the circuit court. We extended the time to file the appellant’s brief to December 30,
2015. Our order warned Miller that this was the final extension, and advised that the appeal
would be dismissed if his brief was not filed by December 30, 2015. As of December 30, 2015,
Miller had not filed an appellant’s brief. On January 7, 2016, in lieu of a brief, Miller submitted
a motion requesting “a very short enlargement of time to file his brief-in-chief.” We dismissed
the appeal on January 21, 2016, observing that “Miller did not file his appellant’s brief by
December 30, 2015, and in fact, the brief has not been filed as of today’s date.”
On January 28, 2016, we received from Miller one copy of an appellant’s brief along
with a letter asking that we accept it for filing. On February 3, 2016, we declined to accept the
single brief, stating that the appeal was previously dismissed on January 21, 2016, due to
Miller’s “failure to comply with orders of this court relating to the time for filing the appellant’s
brief.” On February 25, 2016, Miller filed a motion for reconsideration, which we denied by
order dated March 2, 2016. The Wisconsin Supreme Court denied Miller’s petition for review as
untimely.
Miller first claims that “the voluntariness of [his] waiver of appellate counsel was
nullified by Attorney Jensen’s ineffectiveness.” This issue is a non-starter. While a defendant
has the right to counsel on direct appeal, he does not have the right to counsel of his choice, or
4

No. 2017AP1358-W.

the right to insist that particular issues be raised. Oimen v. McCaughtry, 130 F.3d 809, 811
(7th Cir. 1997).

It is appointed counsel’s function to decide which issues have merit and

appointed counsel is not required to raise every nonffivolous issue the defendant requests. Jones
v. Barnes, 463 U.S. 745, 751-53 (1983). Where there is a dispute, it is counsel’s function to
decide which issues to raise on appeal.
Miller sought to waive his right to counsel because he disagreed with Jensen’s strategy.
We permitted counsel to withdraw only after Miller affirmatively demonstrated that his decision
to waive counsel was knowing, intelligent and voluntary, and that he was competent to represent
himself. Miller cannot now shift the blame for his decision onto Jensen. This would be true
even if, as Miller asserts, Jensen was refusing to raise a meritorious postconviction claim. Miller
cannot show prejudice because he was able to and did file a pro se postconviction motion raising
the issues he believes Jensen missed.2 As Miller concedes, had he opted to proceed with
appointed counsel and was aggrieved, j he could have brought a claim alleging the ineffective
assistance of postconviction or appellate counsel in the appropriate court. Instead, Miller chose
to represent himself, despite the concomitant risks and disadvantages.
Miller’s other claims involve the dismissal of his appeal due to his failure to file a timely
brief pursuant to orders of this court. Miller claims that prison staff and governing regulations
and statutes improperly denied him access to funds which would have allowed him to timely file

2 According to Miller, the fact that the circuit court conducted a hearing on his pro se
postconviction motion establishes that (1) the issues Jensen declined to raise were meritorious and
(2) Jensen provided ineffective assistance of postconviction counsel. We are not remotely persuaded.
That the circuit court conducted a hearing does not minimally demonstrate that Miller’s postconviction
claims were meritorious and even if they were, Attorney Jensen. was not required to raise every
nonffivolous issue.

5

No, 2017AP1358-W

his appellant’s brief, and therefore, the dismissal of his appeal was not his fault. Put another
way, Miller claims that he was denied his right to a direct appeal by prison officials and/or
governing laws in a manner that violated his constitutional rights to due process and equal
protection. We disagree.
Miller’s primary assertion is that prison staff acted arbitrarily and capriciously in
denying, in part, his September 2015 legal loan application. On September 18, 2015, the prison
granted Miller a $50 legal loan for sixty days. According to Miller, had the prison approved a
$100 loan for ninety days as he apparently requested, he would have filed his appellant’s brief on
or before December 30, 2015. Miller asserts that the in-part denial was arbitrary and capricious,
and in retaliation for earlier complaints he made concerning the legal loan process.
We are not persuaded. The September 18, 2015 memorandum from the prison’s business
office explains that the loan was limited due to Miller’s “income, account balance and spending
habits.” The memo stated:
When issuing legal loans we take into account your current
available balances, income and recent canteen/vendor purchases.
Our records show that you have $14.91 in your regular account and
spent $30.50 on canteen/pizza orders over the past 90 days. A
portion of which you chose to spend after being notified by the
courts that you were to submit a brief. Inmates are required to
prioritize their spending. In this case your canteen spending in
combination with your income should have been allocated for legal
monies. If in the future your financial situation changes, you can
request a review. You may provide documentation at any time to
extend [the sixty-day] deadline.
3 Miller’s writ petition also complains that the prison interfered with his ability to litigate his pro
se postconviction, motion in the circuit court. We need not address these complaints. Miller ultimately
litigated his postconviction motion. Additionally, the conduct of prison staff occurring before Miller filed
the notice of appeal is irrelevant to the issues now before this court.

6

No. 2017AP1358-W

/

As the warden’s response points out, prison officials granted Miller’s legal loan
applications in full or in part on multiple occasions throughout 2014 to 2017. By
September 2015, Miller was On notice that his legal loan application would be assessed in light
of his available funds and canteen spending, yet he continued to squander money that could have
been used for his appellate litigation. Further, we agree with the warden that Miller fails to
explain why the multiple legal loans he received were insufficient to meet his needs. We also
agree with the warden that the prison’s granting of multiple prior loan applications eviscerates
Miller’s claim that prison officials acted arbitrarily or out of retaliation in approving the
September $50 legal loan.4 Miller cites no law for his proposition that prison officials must
“automatically” grant him a legal loan in the amount requested every time he asks. At bottom,
this is what Miller believes is required of the prison in order to protect his due process rights.
Just as Miller’s writ petition refuses to acknowledge his role in the prison’s legal loan
decisions, so, too, does it ignore other aspects of Miller’s conduct which contributed to the
dismissal of his appeal. To begin, Miller chose to waive his right to counsel and to proceed pro
se knowing the risks and disadvantages of self-representation, and that if he subsequently
changed his mind and decided that “proceeding pro se was ill-advised,” it was unlikely new
counsel would be appointed.. As part of the warnings given to Miller, prior to counsel’s
discharge, he was advised that:

4'

In support of his assertion that prison staff acted out of retaliation in approving only a $50 loan,
Miller attaches the loan application of another inmate showing that the other inmate’s August 2015 loan
was approved for $81 even though he had spent $67 in canteen in the preceding ninety days. A single
loan application from a completely different inmate (whom, we observe, had only $0.05 in his regular
account) does not minimally support an inference of retaliation.

7

No. 2017AP1358-W

Proceeding in this court on appeal will require Miller to draft and
timely file the appropriate number of copies of a brief and
appendix that comply with WlS. Stat. Rule 809.19 (the content,
form and length requirements for appellate briefs). The brief must
be coherent and must set forth arguments supported by references
to the record on appeal and legal authority. If an extension to brief
an appeal is necessary, Miller shall seek an extension supported by
good cause. Failure to brief an appeal in compliance with these
requirements may result in dismissal of the appeal with prejudice.
The foregoing is not intended to be an all-inclusive discussion of
the difficulties and disadvantages of self-representation.
Knowing these risks, Miller chose to put himself in the position about which he now
complains. Miller was granted multiple briefing extensions by this court. Several motions
requested relief this court could not grant, such as the publication of unpublished cases or the
consideration of police reports outside the record. At least two motions represented that Miller
would request no further extensions.

Miller was explicitly warned that the extension to

December 30, 2015, would be his last, and that the appeal would be dismissed upon his failure to
file an appellant’s brief by that deadline. Nothing was filed. To the extent Miller’s extension
motions informed this court that he was obtaining funds through the legal loan process, he did
not suggest insurmountable glitches or that he had filed inmate complaints and was in the midst
of exhausting his administrative remedies. Instead, Miller informed this court he was using
alternative means to make copies of and to file his appellate brief.

In fact, as to the

September 2015 legal loan previously discussed, Miller moved this court on September 29, 2015,
to either order the prison to grant the full $ 1 OOTaaru-requested. or to order a sixty-day extension.
We ordered the latter.
Next, Miller complains about his inability to pay for court fees and costs from his inmate
release account. Pursuant to prison rules and regulations, inmates can use funds in their release
accounts for limited specified purposes. See DAI Policy No. 309.45.02 at IX.B. One of the

8

1

4

No. 2017AP1358-W

permissible purposes is to pay a prisoner’s court fees and costs under Wisconsin’s Prisoner
Litigation Reform Act (PLRA). Spence v. Cooke, 222 Wis. 2d 530, 533, 537-38, 587 N.W.2d
904 (Ct. App. 1998). A release account may be used to pay court fees and costs only through a
court order authorized by the PLRA. See State ex rel. Coleman v. Sullivan, 229 Wis. 2d 804,
809, 601 N.W.2d 335 (Ct. App. 1999). Because Miller was challenging his conviction, he was
not a “prisoner” under the PLRA.

See Wis. Stat. § 801.02(7)(a)2.c. and § 814.29(lm).

Therefore, Miller could not access his release account to pay court fees and costs in litigating his
direct -appeal.
Miller argues that Wisconsin’s PLRA denies him “less access to the Courts” than
similarly situated indigent pro se appellants who, because they meet the definition of “prisoner,”
can access their release accounts to pay certain court fees and costs.

Miller suggests the

implementation of a policy wherein all inmates would automatically be granted a legal loan if
they had equivalent funds in their release accounts. Miller has not minimally set forth an equal
protection violation arising from DAI policy or the PLRA’s release account provisions. Without
engaging in more discussion than Miller’s unsupported arguments merit, we point out that Miller
benefited from his non-prisoner status, for example, by having his appellate filing fees waived
without requiring repayment from his prison accounts. As to his suggested remedy, this court

r

has neither the authority nor the-inclinaSon to order its implementafronrfrfrer-efojc.
IT IS ORDERED that the petition for a writ of habeas corpus is denied without costs. \

Sheila T. Reiff
Clerk of Court of Appeals

9

i

